           Office of Inspector General




June 17, 2005

WILLIAM ALMARAZ
MANAGER, LOS ANGELES DISTRICT

SUBJECT:         Audit Report - Efficiency of the Los Angeles International Service Center
                 (Report Number NO-AR-05-011)

This report presents the results of our review of the Los Angeles International Service
Center (ISC) located in the Los Angeles District in the Pacific Area (Project Number
04YG037NO000). This is our third report on the efficiency of ISCs. Our objective was
to assess operational efficiency at the Los Angeles ISC. We conducted this audit in
cooperation with the Pacific Area manager of Operations Support and the manager,
Los Angeles District.

The Los Angeles ISC had reduced workhours, but it could further improve
operational efficiency. The Los Angeles ISC generally did not meet productivity targets,
adjust workhours in relation to changes in workload, fully employ mechanized
equipment, or attain the level of efficiency achieved by other centers. The Los Angeles
ISC could begin to improve efficiency by reducing 85,000 workhours based on workhour
usage in fiscal year 2004. This reduction could produce a cost avoidance of
approximately $26.1 million based on labor savings over a ten-year period. We will
report approximately $26.1 million of funds put to better use in our Semiannual Report
to Congress.

We made three recommendations to Postal Service management addressing these
issues. Management agreed with our findings, recommendations, and monetary impact
and has initiatives planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.

The Office of Inspector General (OIG) considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. This recommendation
should not be closed in the follow-up tracking system until the OIG provides written
confirmation the recommendation can be closed.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Alfred Iniguez
    Michael J. Nappi
    Kerry L. Wolny
    Steven R. Phelps
Efficiency of the Los Angeles International                           NO-AR-05-011
 Service Center




                                     TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                  1

     Background                                                                1
     Objective, Scope, and Methodology                                         3
     Prior Audit Coverage                                                      4

 Part II

 Audit Results                                                                 5

     Assessment of Resources at the Los Angeles ISC                            5
     Recommendations                                                          13
     Management’s Comments                                                    13
     Evaluation of Management’s Comments                                      14

 Appendix A. Prior Audit Coverage                                             15

 Appendix B. Targeted Productivity Levels Achieved by Each Type of            19
             Mail Processing Operation and Potential Hour Savings
             Based on Percentage of Achievement to Target, FYs 2003
             and 2004

 Appendix C. FY 2003 and 2004 First Handling Pieces by Total                  20
             Workhours

 Appendix D. LDC 17 Workhours as a Percentage of Total Function 1             21
             (Mail Processing) Workhours for FYs 2004 and 2003

 Appendix E. Cost Avoidance at the Los Angeles ISC (Funds Put to              22
             Better Use)

 Appendix F. Management’s Comments                                            23
Efficiency of the Los Angeles International                              NO-AR-05-011
 Service Center




 List of Figures and Illustrations

      Figure 1. International Mail Revenue                                        2

      Figure 2. International Mail Volume                                         2

      Figure 3. First Handling Pieces, FYs 2003 Through 2004                      3

      Figure 4. Workhours, FYs 2003 Through 2004                                  3

      Figure 5. Los Angeles ISC Trend Analysis                                    6

      Figure 6. Los Angeles ISC Volume Data                                      12

      Illustration 1. Parcels worked manually at the Los Angeles ISC              8

      Illustration 2. Parcels awaiting manual processing                          8

      Illustration 3. Manual sortation of parcels                                 9

      Illustration 4. Hamper dumper in the Customs Unit                           9

      Illustration 5. Mail in Customs Unit awaiting manual processing            10

      Illustration 6. Parcels moving down conveyor belt into sacks and           10
                      hampers on the small parcel bundle sorter (SPBS)

      Illustration 7. Parcels keyed by an operator on the SPBS                   11
Efficiency of the Los Angeles International                                                            NO-AR-05-011
 Service Center



                                         EXECUTIVE SUMMARY
    Introduction                      The Office of Inspector General assessed mail processing
                                      operational efficiency at the Los Angeles, California,
                                      International Service Center (ISC) located in the
                                      Los Angeles District in the Pacific Area.

    Results in Brief                  The Los Angeles ISC had reduced workhours, but it could
                                      further improve operational efficiency. The Los Angeles ISC
                                      generally did not meet productivity targets, adjust workhours
                                      in relation to changes in workload, fully employ mechanized
                                      equipment, or attain the level of efficiency achieved by other
                                      centers.

                                      These conditions occurred because of high management
                                      turnover,1 which resulted in inconsistent and incomplete
                                      reviews of operational efficiencies. Consequently, the
                                      Los Angeles ISC used more workhours than needed to
                                      process mail volumes.

                                      The Postal Service could increase operational efficiency at
                                      the Los Angeles ISC by reducing 85,000 mail processing
                                      workhours. This reduction could produce a cost avoidance
                                      of approximately $26.1 million based on labor savings over
                                      a ten-year period.

    Summary of                        We recommended the manager, Los Angeles ISC, reduce
    Recommendations                   85,000 mail processing workhours based on workhour
                                      usage in fiscal year 2004 and periodically evaluate
                                      operating efficiencies at the Los Angeles ISC. We also
                                      recommended the Los Angeles ISC obtain a Linear
                                      Integrated Parcel Sorter, two universal dumpers, a small
                                      parcel bundle sorter extension, and additional belts.




1
    Since fiscal year (FY) 1999, 13 different people have held the Los Angeles ISC manager position.




                                                          i
Efficiency of the Los Angeles International                                        NO-AR-05-011
 Service Center




 Summary of                      Management agreed with our finding, recommendations,
 Management’s                    and associated monetary impact. Management’s response
 Comments                        indicated that a combination of workhour reductions, an
                                 increase in mail volume, and consolidation of volumes could
                                 also achieve higher efficiency levels. Furthermore,
                                 management agreed to pursue the deployment of a Linear
                                 Integrated Parcel Sorter, two universal dumpers, a small
                                 parcel bundle sorter extension, and additional belts.
                                 Management’s comments, in their entirety, are included in
                                 Appendix F of this report.

 Overall Evaluation of           Management’s comments are responsive to the
 Management’s                    recommendations and reflect that management is taking a
 Comments                        proactive approach to improving efficiency. Management’s
                                 planned actions should correct the issues identified in the
                                 report.




                                                ii
Efficiency of the Los Angeles International                                                                 NO-AR-05-011
 Service Center


                                               INTRODUCTION
    Background                          The Postal Service established international service centers
                                        (ISC) in 1996 to better compete in the growing international
                                        mail market. Before 1996, exchange offices2 processed
                                        international mail.3 These exchange offices were collocated
                                        in processing and distribution centers where domestic mail
                                        processing took precedence over international mail.

                                        On August 5, 1997, the Board of Governors approved
                                        $146.9 million in capital investments funding and
                                        $129.7 million (undiscounted) for lease expense funding to
                                        establish a network dedicated to processing international
                                        mail. The international network was established to improve
                                        international mail service with a dedicated workforce and
                                        single-focus management of international mail. The Postal
                                        Service hoped that this approach would improve service
                                        and provide the structure needed to support new products
                                        and increase revenue. In response to this marketing and
                                        sales plan, ISCs were established in Miami, Florida;
                                        Chicago, Illinois; Los Angeles and San Francisco,
                                        California; Dallas, Texas; New York, New York; and Dulles,
                                        Virginia.4 In addition, two surface facilities that transport
                                        mail over water–which are known as international service
                                        facilities–were established in Oakland, California, and
                                        Jersey City, New Jersey.

                                        However, mail volume or revenue did not increase as
                                        outlined in the marketing and sales plan. The volume of
                                        international mail declined by 20 percent and revenue
                                        increased by 3 percent from fiscal years (FY) 1996 to 2004.
                                        Figure 1, International Mail Revenue, and Figure 2,
                                        International Mail Volume, show the volume and revenue
                                        trends.




2
  An international exchange office or international mail service center is a post office, airport mail center, or facility
authorized to exchange international mail, both air and surface, with another country.
3
  International mail is mail originating in one country and arriving in another. It is classified as Postal Union Mail
(letters, cards, and other articles), postal parcels, and Express Mail International Service.
4
  The planned Dulles, Virginia, ISC was completed in October 1999, but does not serve as an ISC. The Dallas ISC
was closed by the Postal Service in accounting period 7 of FY 2004 because expected increases in mail volume did
not occur.




                                                             1
Efficiency of the Los Angeles International                                                                             NO-AR-05-011
 Service Center




                                                                          Figure 1
             Dollars in Billions
                                                                International Mail Revenue
                                   1.75
                                    1.7
                                   1.65
                                    1.6
                                   1.55
                                    1.5
                                             1996     1997      1998     1999         2000     2001       2002   2003     2004
                                                                                Fiscal Years



                                                                          Figure 2
                                                                 International Mail Volume
                                   1,150.0
      Number of Pieces




                                   1,100.0
                                   1,050.0
          (000)




                                   1,000.0
                                     950.0
                                     900.0
                                     850.0
                                     800.0
                                               1996     1997      1998    1999         2000        2001   2002   2003    2004
                                                                                    Fiscal Years



                                                             In March 1996, Coopers & Lybrand, L.L.P., conducted a
                                                             study on behalf of the Postal Service. The study projected
                                                             international mail revenue at $6.1 billion in FY 2000 and
                                                             $11.4 billion in FY 2005. However, actual revenue in
                                                             FY 2000 was $1.66 billion, a shortfall of 73 percent of the
                                                             projected amount. It is unlikely that the Postal Service will
                                                             achieve the FY 2005 projection of $11.4 billion, based on
                                                             FY 2004 revenue of $1.7 billion.

                                                             The Los Angeles ISC is one of the smaller facilities in the
                                                             international network. In FY 2004, the Los Angeles ISC
                                                             processed nearly 79 million pieces, or 9 percent of the total
                                                             international mail volume. In addition, the Los Angeles ISC
                                                             used approximately 454,387 hours, or 9 percent of the total
                                                             international workhours to process this mail.




                                                                                2
Efficiency of the Los Angeles International                                                     NO-AR-05-011
 Service Center



                                   Figure 3, First Handling Pieces, FYs 2003 Through 2004,
                                   and Figure 4, Workhours, FYs 2003 Through 2004, show
                                   the percentage of total volume and hours used at each ISC.



                     Figure 3                                             Figure 4
              First Handling Pieces,                                    Workhours,
             FYs 2003 Through 2004                                 FYs 2003 Through 2004


                     11%                                                       8%

              14%                                                       13%

                                       51%
                                                                                                51%
               11%                                                    15%
                     9%
                                                                              9%


           New York             Los Angeles                         New York            Los Angeles
           San Francisco        Chicago                             San Francisco       Chicago
           Miami                                                    Miami

                                   Note: We excluded Dallas from the charts above because it was closed in
                                   FY 2004; thus, the percentage totals do not equal 100.

   Objective, Scope, and           The audit assessed operational efficiency at the
   Methodology                     Los Angeles ISC. We observed processing operations,
                                   analyzed mail volumes and workhours, interviewed officials,
                                   evaluated machine utilization, and benchmarked mail
                                   volumes by workhour with other ISCs. We also reviewed
                                   applicable Postal Service handbooks and regulations,
                                   including Handbook M-32, Management Operation Data
                                   System; Postal Bulletins; and Title 39, United States Code
                                   (U.S.C.).

                                    To analyze mail volume and workhours, we used Postal
                                    Service operational systems, including the National
                                    Workhour Reporting System, the Management Operating
                                    Data System, the Web Enterprise Information System, and
                                    the Web End-of-Run System. We checked the accuracy of
                                    data by confirming our analysis and results with Postal
                                    Service managers and found no material differences.




                                                      3
Efficiency of the Los Angeles International                                       NO-AR-05-011
 Service Center



                                   This audit was conducted from November 2004 through
                                   June 2005 in accordance with generally accepted
                                   government auditing standards and included such tests
                                   of internal controls as were considered necessary under
                                   the circumstances. We discussed our observations and
                                   conclusions with appropriate management officials and
                                   included their comments where appropriate.

   Prior Audit Coverage            We have issued 14 audit reports on workhour efficiency.
                                   Appendix A summarizes the findings of these reports.




                                                 4
Efficiency of the Los Angeles International                                              NO-AR-05-011
 Service Center



                                              AUDIT RESULTS
 Assessment of                     Resources at the Los Angeles ISC could be used more
 Resources at the                  efficiently. The Los Angeles ISC generally did not:
 Los Angeles ISC
                                       •      Meet productivity targets.

                                       •      Adjust workhours in relation to changes in workload.

                                       •      Fully employ the mechanized equipment necessary to
                                              efficiently process mail.

                                       •      Attain the level of efficiency achieved by other
                                              centers.

                                   Management at the Los Angeles ISC had addressed
                                   operational efficiency, but could further improve efficiency by
                                   reducing 85,000 workhours, based on FY 2004 workhour
                                   usage.

                                   Title 39, U.S.C., Chapter 4, Section 403, states, “The Postal
                                   Service shall plan, develop, promote and provide adequate
                                   and efficient postal services. . . .”

                                   Because of high management turnover, Postal Service
                                   management had not updated mail arrival profiles, reviewed
                                   transportation schedules, benchmarked operations against
                                   other ISCs, evaluated machine utilization, assessed
                                   equipment needs, or analyzed trends. Consequently, the
                                   Los Angeles ISC used more workhours than needed to
                                   process its mail volume.

 Los Angeles ISC                   The Los Angeles ISC has not achieved target productivity
 Generally Did Not Meet            levels over a two-year period for any of its mail processing
 Productivity Targets              operations, with the exception of the small parcel bundle
                                   sorter (SPBS). Target productivity levels are based on total
                                   pieces of mail that could be processed for each machine or
                                   workhour of an operation. In FY 2004, the Los Angeles ISC
                                   achieved 50 percent of its total targeted productivity levels.

                                   For example, the flat sorting operation achieved 64 percent
                                   of its national target level in FY 2003, but only 52 percent in
                                   FY 2004. Appendix B shows the percentage of target




                                                       5
Efficiency of the Los Angeles International                                                          NO-AR-05-011
 Service Center



                                     productivity levels achieved for each operation and the
                                     associated potential workhour savings

    Workhours Were                   The Los Angeles ISC did not adjust workhours for changes
    Excessive in Relation to         in workload. The mail volume (first handling pieces)
    Workload                         processed at the Los Angeles ISC decreased by 16.1 million
                                     pieces (17 percent) from FYs 2003 to 2004; however,
                                     workhours decreased by 18,524 (or just 4 percent) during
                                     the same period.

                                                                 Figure 5
                                                      Los Angeles ISC Trend Analysis

                                             FY                     Volume (000)                   Hours
                                            2003                       95,290                     472,911
                                            2004                       79,179                     454,387
                                      Percent Change                    -17%                        -4%

                                     The excessive use of workhours in relation to volume
                                     resulted from moving import operations5 and the associated
                                     mail volume to another facility. Although management had
                                     begun reducing workhours by eliminating eight positions at
                                     the end of FY 2004, opportunities exist to reduce workhours
                                     further.

    Lack of Mechanization            The Los Angeles ISC could improve productivity and reduce
                                     workhours by using mechanized equipment.6 Mechanized
                                     equipment will generally process more volume per workhour
                                     than manual sortation. We found that:

                                         •    Large parcels were sorted manually because the ISC
                                              had no mechanized equipment such as a Linear
                                              Integrated Parcel Sorter to sort large parcels.7

                                         •    The Customs Unit hamper dumper8 was seldom
                                              used, since it was not capable of dumping mail that

5
  Import operations sort mail that originated outside the customs territory of the United States (e.g., outside the
50 states, the District of Columbia, and Puerto Rico).
6
  Mechanization equipment (parcel sorters, flat sorting machines, canceling machines, and culling machines) requires
operator input on each mailpiece and is used to sort letters, flats, and parcels. Automation equipment (barcode
sorters and multiline optical character readers) uses technology to sort mail with little operator intervention.
7
  A Linear Integrated Parcel Sorter is used to sort parcels.
8
  The hamper dumper is mechanized equipment that is used to dump mail from hampers onto a conveyor belt.
Illustration 4 is a photograph of a hamper dumper.




                                                         6
Efficiency of the Los Angeles International                                                              NO-AR-05-011
 Service Center


                                                 normally arrived in over-the-road and all-purpose
                                                 containers. As a result, employees manually
                                                 dumped mail on the customs belt. The addition of
                                                 two universal dumpers would allow mail to be
                                                 mechanically dumped on the customs belt,
                                                 streamlining this process.

                                             •   Additional employees were needed in the SPBS area
                                                 to pull bins that filled up quickly and to manually
                                                 process low-density mail where machine separations
                                                 did not exist. An extension to the SPBS machine
                                                 would provide additional separations and allow this
                                                 mail to be worked more efficiently.

                                             •   The Central Dispatch Unit could be improved by the
                                                 use of mechanized belts. This would allow mail to be
                                                 moved more efficiently and facilitate the consolidation
                                                 of some of the dispatch operational setups.9

                                             •   Illustrations 1 through 7 show opportunities where
                                                 mechanized equipment could assist the Los Angeles
                                                 ISC in reducing workhours.




9
    The Central Dispatch Unit is the area at the Los Angeles ISC where mail is readied and loaded for transportation.




                                                             7
Efficiency of the Los Angeles International                                             NO-AR-05-011
 Service Center




Illustration 1. Parcels must be worked manually because there is no Linear Integrated
Parcel Sorter at the Los Angeles ISC.




Illustration 2. Parcels awaiting manual processing.




                                                  8
Efficiency of the Los Angeles International                                               NO-AR-05-011
 Service Center




Illustration 3. Manual sortation of parcels. A Linear Integrated Parcel Sorter would
streamline this process.




Illustration 4. The current hamper dumper in the Customs Unit was seldom used
because mail normally arrived in over-the-road and all-purpose containers. The hamper
dumper cannot take mail from these types of containers and dump it onto a conveyor belt
to begin processing.




                                                   9
Efficiency of the Los Angeles International                                                            NO-AR-05-011
 Service Center




Illustration 5. Mail in the Customs Unit awaiting manual processing. The addition of
two universal dumpers would streamline this process.




Illustration 6. After the operators key parcels (see Illustration 7), the parcels move down
a conveyor belt and fall into separation bins based on ZIP Codes.10 Parcels that are
addressed to ZIP Codes that do not have individual bin separations fall into the red
hamper. As seen above, the red hamper is half full and will need to be replaced soon.
Additional employees will be needed to pull bins that fill up quickly and manually process
mail where individual bins do not exist. An extension to the SPBS would provide
additional separation bins and allow this mail to be worked more efficiently.



10
 The SPBS sorts small parcels, irregular parcel post, bundles of mail, and Priority Mail into as many as
100 separations or outgoing addresses, which would not include all possible outgoing ZIP Codes.




                                                       10
Efficiency of the Los Angeles International                                       NO-AR-05-011
 Service Center




Illustration 7. This picture shows an operator keying parcels on the SPBS. (See
Illustration 6.)




                                                11
Efficiency of the Los Angeles International                                                           NO-AR-05-011
 Service Center



 Los Angeles ISC Less                The Los Angeles ISC was generally less efficient than
 Efficient Than Other                other ISCs. The following figure shows productivity
 ISCs                                levels using first handling pieces per workhour for the
                                     Los Angeles ISC compared to other ISCs. For FYs 2003
                                     and 2004, first handling pieces per workhour ratios for the
                                     Los Angeles ISC were 201.50 and 174.25 compared to the
                                     average of other ISCs’ ratios of 210.91 for FY 2003 and
                                     203.23 for FY 2004.

                                                                 Figure 6
                                                       Los Angeles ISC Volume Data
                                                         FIRST HANDLING PIECES PER       FIRST HANDLING PIECES
                                                               WORKHOUR FOR                PER WORKHOUR FOR
                                        FISCAL YEAR             LOS ANGELES                   OTHER SITES
                                            2003                   201.50                         210.91
                                            2004                   174.25                         203.23


                                     These ratios show that the Los Angeles ISC processed
                                     less mail per workhour than the average processed by
                                     other ISCs. Appendix C shows how the Los Angeles ISC
                                     compared to other ISCs with regard to first handling pieces
                                     per workhour for FY 2004.

                                     In addition, the Los Angeles ISC used more workhours in
                                     Labor Distribution Code (LDC) 17 than any other ISC used
                                     in FY 2004. LDC 17 is defined as Mail Processing Other
                                     Direct Operations.11 LDC 17 workhours used by the
                                     Los Angeles ISC accounted for 47 percent of total mail
                                     processing workhours, compared to the 34 percent
                                     average used by other ISCs. This means that the LA ISC
                                     is using 13 percent more workhours than other ISCs in this
                                     area. See Appendix D.

 Reasons for and Impact              Since FY 1999, 13 different people have held the
 of Inefficiencies                   Los Angeles ISC manager position. During our review, the
                                     current manager had only been in place for two weeks,
                                     and there had already been three different managers since
                                     January 2004.



11
  The activities in LDC 17 include all hours of employees involved in mail processing operations such as mail
preparation, presort operations, traying and sleeving, opening, pouching, and platform operations.




                                                       12
Efficiency of the Los Angeles International                                         NO-AR-05-011
 Service Center



                                   Because of high management turnover, mail processing
                                   supervisors and employees were often unaware of the
                                   current targets and goals for their units. We also found
                                   that Postal Service managers had not evaluated
                                   operational efficiency by:

                                       •      Updating mail arrival profiles.

                                       •      Reviewing transportation schedules.

                                       •      Extensively analyzing operations.

                                       •      Evaluating machine utilization.

                                       •      Assessing equipment needs.

                                       •      Comprehensively benchmarking operations against
                                              similar-sized facilities.

                                   Consequently, the Los Angeles ISC used more workhours
                                   than needed to process its mail volume.

 Recommendations                   To improve operating efficiency, we recommend the
                                   manager, Los Angeles District:

                                       1. Reduce mail processing workhours by
                                          85,000, based on FY 2004 workhours. This will
                                          produce a cost avoidance of approximately
                                          $26.1 million, based on labor savings over a
                                          ten-year period.

                                       2. Periodically evaluate operating efficiency and
                                          staffing to determine whether further workhour
                                          adjustments are necessary based on workload.

                                       3. Obtain a Linear Integrated Parcel System,
                                          two universal dumpers, a small parcel bundle sorter
                                          extension, and additional belts.

 Management’s                      Management agreed with our finding, recommendations,
 Comments                          and associated monetary impact. Management’s
                                   response indicated that a combination of workhour
                                   reductions, an increase in mail volume, and consolidation



                                                    13
Efficiency of the Los Angeles International                                        NO-AR-05-011
 Service Center


                                   of volumes could also achieve higher efficiency levels.
                                   Furthermore, management agreed to pursue the
                                   deployment of a Linear Integrated Parcel Sorter,
                                   two universal dumpers, a small parcel bundle sorter
                                   extension, and additional belts. Management agreed to
                                   implement the recommendations by FY 2010.

 Evaluation of                     Management’s comments are responsive and reflect that
 Management’s                      management is taking a proactive approach in the
 Comments                          implementation of our three recommendations.
                                   Management’s planned actions should correct the issues
                                   identified in the finding.




                                                14
Efficiency of the Los Angeles International                                 NO-AR-05-011
 Service Center



                       APPENDIX A. PRIOR AUDIT COVERAGE

Efficiency of the Airmail Records Unit at the Los Angeles International Service Center
(Report Number NO-AR-05-010, April 28, 2005). We found the Los Angeles ISC could
improve the efficiency of the airmail records unit by reducing workhours by 5,450. A
reduction of 5,450 workhours could produce a cost avoidance of over $1.8 million,
based on labor savings over ten years. We made three recommendations to Postal
Service management addressing these issues. Management agreed with our finding,
recommendations, and monetary impact and has initiatives planned addressing the
issues we identified.

Efficiency Review of the Akron, Ohio, Processing and Distribution Center (Report
Number NO-AR-05-009, March 30, 2005). We found the Akron Processing and
Distribution Center could improve operational efficiency by reducing 235,000 workhours.
This reduction could produce a cost avoidance of approximately $74 million, based on a
labor savings over ten years. We made two recommendations to Postal Service
management addressing these issues. Management agreed with our findings,
recommendations, and associated monetary impact and has initiatives planned
addressing the issues we identified.

Efficiency Review of the Mansfield, Ohio, Main Post Office (Report Number
NO-AR-05-004, December 8, 2004). We found the Mansfield Main Post Office (MPO)
could improve operational efficiency by reducing 24,000 mail processing workhours,
based on the assumption that mail volume will not significantly change from FY 2003
levels. This would allow the Mansfield MPO to achieve 90 percent of its targeted goals
and could produce a cost avoidance of approximately $7.6 million, based on labor
savings over ten years. We also concluded that a favorable business case exists to
move the Mansfield MPO’s outgoing mail operations to the Akron Processing and
Distribution Center. This consolidation would save an additional 28,000 workhours at
the Mansfield MPO, improve network efficiencies, and potentially upgrade delivery
service. This workhour reduction could produce a cost avoidance of over $9.6 million
based on labor savings over ten years. We made four recommendations in the report.
Management agreed with our findings, recommendations, and monetary impact and has
initiatives in progress or planned addressing the issues we identified.

Efficiency of the New York International Service Center (Report Number
NO-AR-04-009, September 24, 2004). We found the New York ISC could improve the
efficiency of processing international and military mail by reducing employee workhours
by 326,000 and increasing supervisory workhours by 6,000, for a net reduction of
320,000 workhours. This reduction of 320,000 workhours could produce a cost
avoidance of more than $98 million, based on labor savings over ten years. We made
two recommendations to Postal Service management addressing these issues.
Management agreed with our finding, recommendations, and monetary impact and has
initiatives in progress or planned addressing the issues we identified.



                                              15
Efficiency of the Los Angeles International                                    NO-AR-05-011
 Service Center



Efficiency of the Airmail Records Unit at the New York International Service Center
(Report Number NO-AR-04-011, September 24, 2004). We found the New York ISC
could improve the efficiency of the airmail records unit by reducing workhours by
30,000. Management should also consider outsourcing the airmail records unit, since
this operation is not core to New York ISC’s mission of processing international mail.
A reduction of 30,000 workhours could produce a cost avoidance of over $9 million,
based on labor savings over ten years. We made two recommendations to Postal
Service management addressing these issues. Management agreed with our finding,
recommendations, and monetary impact and has initiatives in progress or planned
addressing the issues we identified.

Efficiency of the San Francisco International Service Center and the General Services
Administration Facility (Report Number NO-AR-04-006, March 31, 2004). We found the
district should reduce the workhours necessary to process mail at the San Francisco
ISC, transfer mail from the General Services Administration (GSA) Facility to the
San Francisco ISC, and close the GSA Facility. During the audit, Postal Service
management agreed to reduce mail processing workhours at the San Francisco ISC
by 120,000 hours by the end of FY 2007. The reduced workhours could produce an
estimated cost avoidance of approximately $39 million over ten years. In addition,
management agreed to close the GSA Facility, which could produce a cost avoidance
of approximately $5.2 million over ten years. We recommended the manager,
San Francisco District, reduce hours as planned, close the GSA Facility, and
periodically reevaluate staffing. Management agreed and the actions taken and
planned were responsive to the issues we identified.

Efficiency of the Oakland International Service Facility and the Regatta Facility (Report
Number NO-AR-04-007, March 31, 2004). We found the district should reduce the
workhours necessary to process mail at the Oakland International Service Facility,
transfer mail from the Regatta Facility, and close the Regatta Facility. During the audit,
Postal Service management agreed to reduce mail processing workhours at the
Oakland International Service Facility by 25,000 by the end of FY 2006. The reduced
workhours could produce an estimated cost avoidance of approximately $5.4 million
over ten years. In addition, management agreed to close Building 512, rather than the
Regatta Facility, due to an early termination of the Building 512 lease. Closure of
Building 512 could produce a cost avoidance of approximately $3.4 million. We
recommended the manager, Oakland District, reduce hours as planned, close
Building 512, and periodically reevaluate staffing. Management agreed and the actions
taken and planned were responsive to the issues we identified.

Efficiency of Work Performed by Business Mail Entry Clerks in the Springfield, Virginia,
Business Mail Entry Unit (Report Number NO-AR-04-004, February 9, 2004). We found
that the district should reduce the workhours necessary to accept business mailings in
the Springfield, Virginia, Business Mail Entry Unit (BMEU). During the audit, Postal
Service management agreed to reduce business mail entry workhours by 2,775 by the



                                              16
Efficiency of the Los Angeles International                                 NO-AR-05-011
 Service Center


end of FY 2006. The reduced workhours could produce an estimated cost avoidance of
approximately $969,000 over ten years. We recommended the manager, Northern
Virginia District, reduce hours as planned and periodically reevaluate staffing.
Management agreed and the actions taken and planned were responsive to the issues
we identified.

Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland,
Business Mail Entry Unit (Report Number NO-AR-04-002, December 26, 2003). We
found the district should reduce the workhours necessary to accept business mailings in
the Columbia, Maryland, BMEU. During the audit, Postal Service management agreed
to reduce business mail entry workhours by 3,960 by the end of FY 2005. The reduced
workhours could produce an estimated cost avoidance of approximately $1.4 million
over ten years. We recommended the manager, Baltimore District, reduce hours as
planned and periodically reevaluate staffing. Management agreed and the actions
taken and planned were responsive to the issues we identified.

Efficiency of Work Performed by Business Mail Entry Clerks at the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, December 24, 2003). We
found the district should reduce the workhours necessary to accept business mailings in
the Southern Maryland BMEU. During the audit, Postal Service management agreed to
reduce business mail entry workhours by 20,240 by the end of FY 2006. The reduced
workhours could produce an estimated cost avoidance of approximately $8.4 million
over ten years. We recommended the manager, Capital District, reduce hours as
planned and reevaluate staffing needs periodically. Management agreed and the
actions taken and planned were responsive to the issues we identified.

Efficiency of Work Performed by Business Mail Entry Clerks Within the San Francisco
District (Report Number AO-AR-03-002, September 25, 2003). We found the district
should reduce the workhours necessary to accept business mailings in the
San Francisco BMEU. During the audit, Postal Service management agreed to reduce
business mail entry workhours by 18,000 by the end of FY 2006. The reduced
workhours could produce an estimated cost avoidance of approximately $6.9 million
over ten years. We recommended the manager, San Francisco District, reduce hours
as planned and reevaluate staffing needs periodically. Management agreed and the
actions taken and planned were responsive to the issues we identified.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, July 31, 2003). We found the district should
reduce the workhours necessary to accept business mailings. During the audit, Postal
Service management agreed to reduce business mail entry workhours by 28,800 by the
end of FY 2005. The reduced workhours could produce an estimated cost avoidance
of approximately $9.26 million over ten years. We recommended the manager,
Los Angeles District, reduce hours and reevaluate staffing needs periodically.
Management agreed with our recommendations and has initiatives in progress
addressing the issues we identified.



                                              17
Efficiency of the Los Angeles International                                NO-AR-05-011
 Service Center



Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, March 28, 2003). We
found that these facilities should reduce the workhours necessary to accept business
mailings. Management could save an estimated $588,000 through the end of FY 2005
when its planned workhour reductions are fully implemented. We recommended that
senior plant managers at the Seattle, Minneapolis, and Des Moines Bulk Mail Centers
(BMCs) reduce hours, reevaluate staffing needs periodically, and ensure that
appropriately trained personnel perform acceptance functions. Management agreed
and the actions taken and planned were responsive to the issues we identified.

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, September 26, 2002). We found
that many business mail entry employees at the Denver BMC and Denver General Mail
Facility were not needed to accept business mailings. Management could save an
estimated $1 million annually by reducing the number of employees. We recommended
management oversee the consolidation of business mail entry operations and reduce
staff as planned, and reevaluate staffing to determine whether further reductions were
necessary. Management agreed and the actions taken and planned were responsive to
the issues we identified.




                                              18
     Efficiency of the Los Angeles International                                                                       NO-AR-05-011
      Service Center


         APPENDIX B. TARGETED PRODUCTIVITY LEVELS ACHIEVED BY EACH TYPE OF MAIL
                   PROCESSING OPERATION12 AND POTENTIAL HOUR SAVINGS
                     BASED ON PERCENTAGE OF ACHIEVEMENT TO TARGET,
                                   FYS 2003 AND 2004


                                               PIECES PER                       PERCENT OF TARGET             FY 2004 POTENTIAL WORKHOUR SAVINGS
             SUMMARY DATA                WORKHOUR PRODUCTIVITY                        ACHIEVED                      BASED ON TARGET ACHIEVED
     Machine                               2003          2004       Target       2003          2004          100%       90%       80%        70%
     DIOSS                                    3,530         4,232      9,082          39%           47%        8,255      7,455     6,454       5,168
     UFSM 1000                                  331           269        520          64%           52%       20,243     17,833    14,821      10,948
     SPBS                                       237           309        366          65%           85%        4,973      1,947    (1,836)     (6,700)
     Manual Letters, Flats and Parcels          210           258        691          30%           37%       22,662     21,164    19,291      16,882
     LA ISC Totals                              695           763      2,665          44%           50%       56,133     48,398    38,729      26,298
          LDC 17                                N/A           N/A   156,264            N/A          N/A       58,018     52,216    46,415      40,613
     LA ISC Total with LDC 17                   N/A           N/A        N/A           N/A          N/A      114,151    100,614    85,144      66,911


     Totals for operations were determined by total pieces on each of the mail processing operations divided by the total
     workhours used on each of the mail processing operations.
     Source: Management Operating Data System and Breakthrough Productivity Index Targets.




12
 Machines include the Delivery Barcode Sorter Input/Output Subsystem (DIOSS), the Upgraded Flat Sorting Machine (UFSM 1000), and the SPBS. The
LDC 17 includes all nonsupervisory hours of employees involved in mail processing operations other than distribution.



                                                                                   19
Efficiency of the Los Angeles International                                                                                 NO-AR-05-011
 Service Center


                 APPENDIX C. FY 2003 FIRST HANDLING PIECES
                          BY TOTAL WORKHOURS13


              San Francisco
                                                                                 159.73



                Los Angeles
                                                                                               201.50



                   Chicago
                                                                                                          245.06




                     Miami
                                                                                                                   277.32



                  New York
                                                                                                206.74


                              0.00      50.00        100.00             150.00            200.00         250.00       300.00




               FY 2004 FIRST HANDLING PIECES BY TOTAL WORKHOURS


              San Francisco
                                                               137.88



                Los Angeles
                                                                           174.25


                   Chicago
                                                                                     204.62



                      Miami
                                                                                                          286.33



                  New York
                                                                                      207.54

                              0.00   50.00      100.00         150.00            200.00        250.00     300.00      350.00




13
   We computed these ratios by dividing the first handling pieces volume and total handling pieces volume by the total
workhours for FY 2004. The Dallas ISC was not included in this comparison because it closed in accounting period 7
of FY 2004. Source: Web Enterprise Information System.




                                                              20
Efficiency of the Los Angeles International                                            NO-AR-05-011
 Service Center


          APPENDIX D. LDC 17 WORKHOURS AS A PERCENTAGE
              OF TOTAL FUNCTION 1 (MAIL PROCESSING)
                WORKHOURS FOR FYS 2004 AND 2003

                                                 FY 2004
         60.00%

         50.00%         47.16%          46.26%
                                                        38.30%
         40.00%                                                   35.53%
                                                                                 30.13%
         30.00%

         20.00%

         10.00%

          0.00%
                      Los Angeles San Francisco         Miami     Chicago       New York


Note: Average LDC 17 workhours in FY 2004 (excluding Los Angeles and Dallas) was 34.39 percent of total
function 1 (mail processing) workhours.

                                                 FY 2003
         60.00%
                                        48.25%
         50.00%
                        41.35%                          41.50%
         40.00%                                                   35.71%
                                                                                 30.19%
         30.00%

         20.00%

         10.00%

          0.00%
                      Los Angeles San Francisco         Miami     Chicago       New York

Note: Average LDC 17 workhours in FY 2003 (excluding Los Angeles and Dallas) was 35.29 percent of
total function 1 (mail processing) workhours.




                                                   21
Efficiency of the Los Angeles International                                         NO-AR-05-011
 Service Center


                               APPENDIX E
                  COST AVOIDANCE AT THE LOS ANGELES ISC
                        (FUNDS PUT TO BETTER USE)


        Recommended Action                                     Timeframe: Ten Fiscal Years
               and                       Workhour                for Each Annual Action
         Employee Category               Reduction
             Affected
                                                            Undiscounted   Discounted Savings
                                                              Savings      (Net Present Value)


 Reduction:
                                              85,000        $38,397,576        $26,075,474
 Mail Processing Clerks14

 Total                                        85,000        $38,397,576        $26,075,474
Notes
   • Cost avoidance was calculated using the workhour reduction multiplied by the
      fully loaded labor rate.
   • Labor cost was escalated at 2.7 percent.
   • Net Present Value was calculated using the discount rate of 5 percent.
   • Fully loaded labor rates are based on the Postal Service’s FY 2004 published
      rates.
   • Labor cost escalation was based on the Postal Service’s FY 2004 published
      Decision Analysis Factors.
Funds Put To Better Use: Funds that can be used more efficiently by implementing
recommended actions.




14
     Level 5.




                                                       22
Efficiency of the Los Angeles International                  NO-AR-05-011
 Service Center


                         APPENDIX F. MANAGEMENT’S COMMENTS




                                              23
